 '&




                       DRG 416: SEPTICEMIA




              V'c's.
      'i




           """'JQ




. OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS

                                             AUGUST 1989
                              Ofice of Inspector General

  The mission of the Offce of Inspector Genera (OIG) is to promote the effciency, effective­
                     progrs in the United States Deparent of Health and Human Ser­
  ness, and integrty of
 vices (HS). It does this by d-:yeloping methods to detet and prevent fraud
                                                                            , waste , and
 abuse. Created by statute in 1976, the Inspetor General keeps both the
                                                                        Secreta and the Con­
 gress fully and curently informed about programs or management problems and recommnds
 corrtive action. The OIG performs its mission by conducting audits,  investigations, and in­
 spections with approximately 1   300 sta strategically located around the countr.



                          Ofice of Analysis and Inspections

 This report is prouced by the Offce of Analysis and Inspections (OAI), one of the
 major offces within the OIG. The other two are the Offce of Audit and the           the
 tigations. The OAI conducts inspections which ar                            Office of Inves­
determe progr effectiveness, effciency, and vulnerability
                                              , tyically, short-term studies
                                                          to fraud or abuse.
                                                                                 designed to



Entitled " DRG 416: Septicemia, " this inspetion was conducted to analyze the
of discharges paid as DRG 416. The report was prepared by BOTEC Analysischarcteritics
                                                                              of Cabridge
MA under contrt HHS- l 00- 88- 00 19 and the Office of Analysis and Inspetions
Branch. The following people paricipated in this project.                      , Health Car

David Stone ,
            M. , BOTEC Analysis
Marcia Meyers, M. A., BOTEC Analysis
Mark Kleiman , Ph. , BOTEC Analysis
Jeremy Schutte , BOTEC Analysis
Fiona Le, M. Ed. , BOTEC Analysis
David Hsia, J. , M. , M.     , Health Care Branch
Mark Krshat , M. A., Health Cae Brach
                    DRG 416: SEPTICEMIA




                        RICHARD P. KUSSEROW
                         INSPECTOR GENERAL




OAI. 12-81180   ;                             AUGUST 1989
                              Contract Information



Contractor
                         Project Officer
BOTEC Analysis Corpo;ation
         David Hsia , J. , M. , M. P.H.

36 JFK Strt
                        Health Car Brach

Cabridge , MA02l38                  Office of Inspetor General

                                    330 Independence Ave., SW
                                    Washington , D. C. 20201


Contract
HHS- l00- 88-0019
                                EXECUTIVE SUMMARY


BACKGROUND

Septicemia is a bacterial infection of the bloo. Pathologically, the microorganisms multiply
briskly in the rich medum , secrete toxins , and rapidly overwhelm the patient's defenses.
Gram negative organisms pose parcular mecal dagers. The prolonged, complex hospita
course cares a high relative weight. The National DRG Validation Study suggested a high
rate of overpayments for diagnosis related group (DRG) 416. This inspetion fuher quan­
tifies the initial work.



FINDINGS

             Discharges biled as DRG 416 have a 40.5 percent rate of actually grouping to a
             different DRG. This rate significantly excee the 20. 8 percent for all DRGS.

             The hospital overpaid itself in 91. 9 percent of codng errors. This proporton
             significantly excee the 59. 2 percent for all DRGs.

             These mis-assignments project to $69 millon in overpayments anualy.

            One- hal of the incorrtly paid discharges in this sample should have ben
            biled to an alternative DRG within Major Diagnostic Category (MDC) 11
             (kdney and uriar tract) or MDC 18 (infectious disease). Parcularly common
            errrs involved mis-assigning discharges
                                                      gruping to fever of unkown origin
            (DRG 419) or uriar tract infection , site not speified (DRG 320).

            Patients reeived por qualty of care in 15.3 percent of hospitaizations. This
            rate signifcantly exceeds the 5. 5 percent for all DRGs.



RECOMMENDATIONS

            The Health Ca Financing Admnistrtion (HCFA) should diect the per
            review organizations (PROs) to review prospectively all DRG 416 discharges
            for both codg accuracy and poor quality car. This action would reover $69 .
            milion annually.
The I:CFA should diect the PROs to educate physicians and codrs about the
proper assignment of DRG 416, and about method' nf uistinguishing septicemia
from fever of unknown origin and uriar tract infection , site not speified.
                                                                                                                                       .. .. . ...



                                                             TABLE OF CONTENTS€

          EXECUTIVE SUMMARY.
                                                         . . . 0 0 . . . 0 . . . . 0 . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                       ..0..0...               --i-

          INTRODUCTION.                      . . . . 0 . . . . . . . . . . . 0 . . . . . 0 . . . . . . . . 0 . . .
                                                                                                                         . . . . . 0 . . 0 0 . . . . .
                     Background. . .            0 . . . . . 0 . . . 0 . . 0 0 . . . . . . . . . . . . . . . 0 . . 0 .
                                                                                                                      . . . . . . 0 . . 0 . . 0 0 . . 0 .
                     PPS vulnerabilities. . .              0 . . . . . . . 0 . . . . . . . 0 . . . . . . . . . . . . . . . 0 . .
                                                                                                                                  0 . . . . . . 0 . . . .
                     PPS clais proessing.                      . . . 0 . . . 0 . . 0 . . . 0 . . . . . . . . . 0 . . 0 . 0 . . . 0 .
                                                                                                                                    0 0 . . . 0 0 . . 0 .
                     DRG 416 . . . . . . . . 0 . . . . . . . . . . . . . . . 0 0 . . . . . . 0 . . . . . . . . . .0 . 0 0 . . . . . . 0 . . . .
                     Methodology. . . 0 0 0 . . 0 . . . 0 . ; . 0 . . 0 0 . . 0 0 . . 0 . 0 . 0 0 . . . . .0 . . 0 0 . 0 . . . 0 0 . . . 0 .

         FINDINGS                   0.......    0 0 . . . 0 . . . . . . 0 . . 0 . . . 0 . . . . . . 0 . . 0 . . . . .
                                                                                                                            0 . 0 . . . 0 . . . . . .
                     Sample charcteristics. 0 . . . 0 0 . 0 0 . . 0 . . . . 0 . . . 0 . . 0 0 . 0 0 . . 0 . . . . .. . . 0 0 0 . . 0 . .
                    DRG assignment errrs.                  0    . . . . 0 0 . . 0 . . . 0 . . 0 0 . . 0 . . . 0 . . 0 . . . 0 . . 0 .
                                                                                                                                     . 0 0 . 0 0 . . 0 .
                    Dirtion of errrs . 0.......                      0 0.. 0....... 0...... 0.. 0... 0..... 0... 0.....
                    Deparent makng errrs.                         0 . . . 0 0 . . 0 . . . 0 . . . . . . . . . . 0 . . 0 . . 0 . . . . .
                                                                                                                                       . . . . 0 . . 0 .
                    ReasonsforDRG4l6assignmenterrrs 0... 0.......                                             o. 0... 0.. o. 0 0.. 0 0.. o.
                    Financial effects. . . . . 0 . . . . 0 . . . 0 . . . . . . 0 . . 0 . . . 0 0 . . . . 0 . . . 0 .. 0 . . 0 0 . 0 0 . . 0
                    Corrt DRG assignments. . .                        0 . . . 0 . . 0 0 . . . . . . . . . 0 . . 0 . . . . . . 0 . . 0 . . .
                                                                                                                                           . . . 0 . 0 .
                    Clinical review results. 0 . . 0 . . . . 0 . . 0 . . 0 0 . . . . . . . . . 0 . . 0 . . 0 . . 0 .. 0 . . 0 . . . . . .

        RECOMMENDATIONS.
                                                     . . 0 .. 0 . .. .. 0 0 .. . . 0 . .. .. . 0 .
                                                                                                   . .. 0 . . 0 .. ..


        Appendix A- I: DRG 416                     discharges frm al PPS hospitals.. 0 . o. . 0.. o. 0 .....                                  0   0 . 0 . A-
        Appendix A-2: DRG 416 sampling frame 0..                                    0 0   0 . o. 0 o. 0 o. ...     '" o.    0 0 . . .. 0 o.   0.. 0 . A-
       AppendixA-3: DRG416hospitademogrphy . 0... 0.. o. 0.0.0. o.
                                                                                                                          0 o. 0.. o. 0 o. 0.. o


       Appendix A-4: DRG 416 hospita demogrphy comparson o.
                                                                                                              0 . . 0 . 0 0 . 0 . 0 . . . . . 0 . . 0 .



       Appendix                S:
0..0..0.00..000.00.0..0....0.0..     DRG 416 patient demography.

       Appendix A- 6:                DRG 416 patient demography comparson. . 0 . 0 0 . 0 . 0 0 . 0 . 0 0 . . . . 0 . . 0 A-

       Appendix B- 1: DRG 416 assignment errors.
                                                                                  ... .. .. . ... . .. 0       . 0 .. . . . . . . . 0 . . . . . . .. B-
       Appendix B. 2: DRG 416 assignment errrs comparson.
                                                                                                     0 .. o. . . . . . 0 .. . . 0 . . 0 0 0 . . o. B-
       Appendix B- 3:               DRG 416 assignment errrs                  by patient        demography.. . 0 . 0 0 0 o. 0 . . . . . . B-
       Appendix C-             l: DRG 416 diection of error 0.. 0 .. . . . .. .. .. . . . . .                           . .. .. .. ... 0 .     . . . . C-
       Appendix C- 2:               DRG 416 diection of error comparson 0...                              o. o. o. .     . . . o. . . . 0 . 0 . . . 0 C-
                                                            .............................
                                                                      .... ... .... ............. .... .... .. ..
                                                              ...... ....                 .....
                                                                            . .. . .. . . . . ......
                                                                                                   ...
                                                                                                   .. .. .. ..    .



 Appendix C- 3: DRG 416 diection of error by          patient demoV":," y            ................. C-

 Appendix D-   l: DRG 416 hospita deparment makg error. . . . . . . . . . . . . . . . . . . . . . . D-
 Appendix D. 2:   DRG 416 hospita deparment makg error comparson. . . . . . . . . . . . . D-

Appendix D- 3:    DRG 416 hospita deparent            makg error by patient demogrphy. . . . D-
Appendix E.   l: DRG 416 reasons for errors ....................... '"'''''''''' E-
Appendix E- 2: DRG 416 reasons for errors by hospita demography.
                                                                                                         . .. ... . E-



Appendix E- 3:   DRG 416 reasons for errors comparson. . . . . . . . . . . . . . . . . . . . . . . . . . E-

Appendix E-4: DRG 416 reasons for errors by patient demography. . . . . . . . . . . . . . . . . E-€

Appendix F- l: DRG 416 corrte relative weights.                                                            . . . . .. F-
AppendixF-2: DRG416corrtedreimburement ..............................                                                 F-

Appendix F-3: DRG 416 estimate cost of errrs by year. .. . . .
                                                                                . . . . . . . . . . . . . . . . . . . F-
AppendixG- l:     Corrt MDCs forDRG416 errors
Appendix G- 2: Corrt DRGs for DRG 416 errrs.                . ... ... .. .. .                                    .. .. G-
Appendix H- l: DRG 416 clinical review.. . .. .. . . .. . .
                                                                                                          . .. ... H-
Appendix H- 2: DRG 416 clinical review comparson.
                                                                                                        .. .. ... H-
                                        INTRODUCTION


  Background

  On October 1 ,   1983 , the Health Car Financing Admistration (HCFA) began
                                                                             implementing a
  new system of payment for inpatient hospital servces under the
                                                                Medcar program. The new
  prospetive payment system (PPS) replaced the cost- base reimbursement system. Congrss
  mandated this change becau e of rapid growt in health care
                                                             costs, parcularly inpatient ex­
  penses under Medcare.

  Under PPS, hospitals reeived a pre-established payment for each discharge
                                                                            , base upon the
  diagnosis related group (DRG) to which the dischare is assigned. The PPS classified dischar­
  ges into cliically coherent grups which used similar amounts of hospita resources
  varables such as diagnosis; evaluation and tratment proedurs; and                 , based on
                                                                    patient age , sex , and dis­
 cbarge status. Each of the 475 DRGs had an associate relative weight
                                                                          , which represented the
 average cost for hospital care provided to patients with diagnoses
 proporton of the cost of the average patient. The hospita receivedgruping    to that DRG as a
                                                                     this payment
                                                                                    , independent
 of the actual lengt of hospitaization or cost of tratment for the individual patient.  With cer­
 tan exceptions, the hospita retaned any surlus frm patients consumig less than the ex­
 peted amount of resources ,   and suffere losses on those patients
                                                                      consuming more.
 The shift from cost- based , retrospetive reimbursement to prospetive
 one of the most dramtic changes in heath care reimbursement since paymnt constitute
 A fixed paymnt per discharge induced hospitals to implement          the cration of Medcare.
                                                                 economies and reuce unneces­
 sar servces. The tota payments to
                                       the hospitas provide the sam fiancial        resources for
 patient car.In effect , PPS reversed the financial incentives for hospitas.
 reimbursement system rewared longer hospita stays and                       Where the cost-
                                                            more costly tratments, PPS
 rewared earlier dischares and less costly procedures.

 PPS vulnerabilties
The advent of PPS create new opportnities
                    Medcar patients. To protect the integrty of PPS and " to incre hospi-
                                            for manipulation or "
ti revenues from 

                                                                  gamng
car Congrss                                                              maitan quality of
                established the peer review organizations (PROs) to monitor hospita activities.

The Offce of the Inspector General (OIG) conducte the National DRG Validation
surey the genera accuracy of DRG assignment and quality of                       Study to
                                                             car performed by hospitals
under PPS. Its examation of over 7,
                                     00 medcal reord established that assignment
resulte in $300 milion in overpaymnts to hospitas                                   errrs
                                                    and that the majority of overpaymnts
could be trced to assignment errrs afecting a small number
                                                           of DRGs. This report is one in .
a series examing assignment accuracy of one of the DRGs identified as having the highest
impact on overpayments under PPS and the gratest
                                                     potential for cost recovery.
  PPS gaming taes two principal forms: optimization "rod creep. "Optimization
                                                                                          " strtegies ad-
  here to codng rules, but maximize hospita reimbur'''lI",nts by selecting the
                                                                               most expensive
  among viable alternative principal diagnoses or adding more secondar diagnoses. The PPS
  permts optimization , which flows frm the basic incentive strctue of the PPS system.

   DRG crp " results from codg practices which do not conform to codng rules.
                                                                                             Sources of
  DRG crp include:

        Misspecijcation:    The attending physician wrtes an incorrt principal diagnosis
        (defined by the Uniform Hospita Discharge Data Set
                                                                (UDS) as " that condition
        established after study to be chiefly responsible for occasioning the
                                                                              adssion of the
        patient to the hospita for care ), seconda diagnoses, or proedures on the attstation
        sheet.

       Miscollng:            The hospita assigns incorrt   numeric codes to   diseases or proedures
       correctly atteste to by the attending physician.


       Resequencing:            The hospita substitutes a seonda diagnosis for the corrct    principal
       diagnosis.

 Auditig and review practices seek to curail
                                                     crep by identifying discharges in which codg
 rules are misapplied or ignore.

 Claims processing

 Under PPS, the hospita files a clai        Medcare reimburment upon diScharging the
                                             for
 beneficiar. At the time of discharge
                                       , the attnding physician attests to the principal diagnosis
 which caused the patient s admssion to the hospita,
                                                        seconda diagnoses, and procurs
 (diagnostic and therapeutic) provide The hospita translates the
                                                                     nartive diagnoses of the
physician s attestation statement into numeric cods bas on
                                                                the International Classification
of Dis ases, Ninth Revision, Clinical Modcation (ICD-
intermedar (F organizations, workng under contrct withCM),          and prepars a claim. Fiscal
                                                               HCFA, enter
into the GROUPER computer progr which assigns the appropriate DRG forhospita'               s codes
                                                                                    reimbursement
Hospita reimbursement is calculate by multiplying the "
                                                       relative weight " of each DRG
category by a stadaze amunt , as moded                 by certn hospita-speific
tive weight of each DRG vares above or below the mean relative weight for factors.     The
                                                                                all DRGs    rela­
                                                                                          (ap­
proximtely 1.          00)
                      accordng to the average amount of hospita resoures use by
                                                                                      patients in
that diagnostic group. The higher the relative weight
                                                        , the greater the reimbursement. Mis-as­
signment of the ICD- CM categories, or errneous assignment or sequencing of pati
noses , can thus have significant financial implications.                                nt diag"
                  :;;
              ~~~~~~ ~~~~~~
              -- -- --            '"'" ..
                       --- --- ------   /,. . .
                                ::_ ::_--
                                      - - ----
                                            - ---    ;-;:;. ,,=::;: ;:;:: .. .
                                                  ------
                                               -- .. ..---------
                                                             - -----
                                                                 - - -----
                                                                     -----      - ,- ;---
                                                                      ;: -;; --------
                                                                              - --     : ::.----
                                                                                         - ,---  -::_
                                                                                             ~~~~~ -----
                                                                                             _ ------  - -
                                                                                                     --:_          ;:_.
                                                                                                             ------- ----
                                                                                                                  -------       -..-.
                                                                                                                                ------.
                                                                                                                                ......().....




   DRG 416

   This study examines erroneous assignment and gaming in a single DRG: 416, "
                                                                                                                                      septicemia
   age;: = 18. " In septicemia or " bloo poisoning,
                                                    "
                                                   bacteria infect the bloostream. A varety
  of pathogens can invade the bloo. They can enter thugh skin wounds
  trct , intrvenous catheters, intrvenous drg abuse, or other ports. The , microorganisms
                                                                            gastrintestinal "­
  reprouce rapidly in the rich cultu medum. Most septicemias
                                                                 car a grave prognosis.
  DRG 416 does not include bloo infections that derive from anatomic defects   of the hear val­
  ves (endocarditis: DRGs 135- 7) or vessel walls (thombophlebitis: DRGs 130 and 131).

                                                                                                                              Relative Weight

        8 - n -   -. n n hn - -. n - -. m- m - n n - ._                                                                      Diecherge. (10 K)
                                                                                                                     -n

                                                                                                                             Chrges ($100 M)
        6--
                                                                                                                             Paymnt ($100 M)

        4--                                                                                                                 Men payment ($1 K)
                                                                                                                                -"-4.-...

        2--


            1964                             1985                              1986                                1997
                                                         Rsesl Year

                                                 Figure 1: DRG 416 -- Septicemia


 The invadg bacteria may seete toxins that cause the clinical symptoms of septicemia:
 fever, chis, skin eruptions, and gastrintestinal abnormalities. Diagnosis depends upon multi­
 ple bloo cultues, but these tests may repeatedy fail to identify a causal organism. Therapy
 involves fluid support and parentera antibiotics. Use of steroids remans controversial. Com­
 mon complications include metastatic infection to the joints,
                                                               bran,                                          and abscesses; and septic
 shock.

 A varety of other diseass have similar symptoms. In parcular, uncontrolled
fections can induce systemic symptoms such as fever. However                     urnar trct in­
                                                                  , a urne analysis or cultu
will reliably identiy the location of the infection. A continuous fever for
daly temperatus exceeng 10 1 degrs Falnheit and which remans undiagnose          weeks with                             th
week of intensive hospita workup comprises a "fever of unkown                            after 1

patients would not normally linger for so long a period (Le.         origi" orFUO.     Septic
                                                             , surve) without the underlying
cause delarng itself. Prper diagnostic testing should distinguish
                                                                      urnar trt                                               ineciions and-
FUOs from septicemia.
The incidence ofDRG 416 and charges for it have risen steadly since the inception of PPS.
Their rates of incrase outpace the genera escalation
                                                     in PPS costs.
                                            .:.:.:.:.:.:.:.:




  Methodology

 This study use a strtified two-stage sampling design base on hospitals to select medcal
 reords for review. The fist stage use simple random sampling without replacement to
 select up to 80 hospitas in each ofth  be-size strata: less than 100            be
                                                                           (small), 100 to
 299 bes (medum), and 300 or more beds (large). The seond stage of the design employed
 systematic radom sampling to select 25 DRG 416 bils frm each strta for Medicar dischar-
 ges between October 1, 1984 and March 31 1985.




                                           "'00 bed.



                                          '0029 be.€



                                           30+ bes€
                DRG 416€                                                         All DRGs€



                                    Rgure 2: Sampling frame€

 The OIG contrted with the Health Data Ins titute
                                                               (HI) of Lexingtn , Massachusett to
reabstrt the mecal reord. Upon reeipt; the contrctor " blinded" the ICD-                     CM codes
by covering them, and assigned an identification number to each reord. An
Record Techncian or Registere Record Admnistrtor proficient in ICD-
                                                                                      Accte
                                                                           CM
reviewed the enti reord to substatiate the principal diagnosis, other diagnoses,
                                                                                       cog
                                                                                              and proc­
durs indicate by the attndig physician in the nartive
                                                         attestation form. Any
which did not support the assigned DRG classification were referr to physicia
                                                                                             rerds .
                                                                                             reviewers.
The physician reviewers designate the corrt Uniform Hospita Dischare Data Set
diagnosis, and adtional diagnoses and/or proedurs which were substatite by
                                                                                                pricipal
                                                                                   the patient
reord. The GROUPER computer progr proesse the
                                                            rebstrcte ICD- 9-CM cods to
determne corrt DRGs. A full discussion of the methodology and fmdings of the
                                                                                  contrctor
reord review is available in the fmal report of the National DRG Validation Study (available
frm OIG Public Affai).


DRG 416 was chosen for this inspetion because of its high error rate and relative
(1.5343). The eIG contrte with BOTEC Analysis of Cabridge, MA to exameweight      data for
DRG 416 in grater deta, to identify soures of coding errrs
                                                            , and to make reommendations
for reovery of overpaymnts.
                                                                                                        ''   ~~~




                                                                FINDINGS€

   Sample€
   In FY 1985, 65, 237 of the 8.3 milion prospetive payment discharges (0. 8 percent) groupe
   to DRG 416. The National DRG Valdation Study estimates that the majority came
   medum size hospitas, with the remaider split evenly between the other strta.
                                                                                       frm
                                                                                    In the fist
   half of FY 1985, the 239 hospitas selected in stage one of the sample design (the sampling
   fre)    biled for 222 396 discharges of which 1,493 came frm DRG 416 (0. 7 percent). The
   fist stage of the sample              design therefore over-represents large hospitas.

                                                                                                Ves    W",""'i€

            DRG 416: Urban
                                                                                              r%t1Miff.ftlfWMi.4H€
            All DRGs: Urban
                                                                                            UtitftrHW4Wtlt.&ttil€

         DRG 416: reschlng

                                                                  IitFftt .tnW.&!itflhWJ.*giifMtEifj.1Wt**ll€
        All DRGs: reschlng
                                                                tf1mWIWi\WdtJ(4t1tUtftlf:WlJR_!1;z1tgflt%?1t\K4J€


             DRG 416: Protl
                                          M.tf.l*WWR%f$t 1t?Jkf.?&jjt4&a,li11M$fM.4W1Whf.tfh\i:€
             All DRGs: Protl
                                                    tflWit*r1Jn%li% jfWPN*Jf:g4tBf.f$iftMffwrfgJt:Wtg*.*
                                                                                                                   100€
                                                                        Pornt
                                                      Rgure 3: Hospital demography

 Addtionally, the two-stage sample design permts caculation
                                                                                     of separte results for
 beneficiares (the probabilty of something happenig to a person) and hospitas (the Medcar
 an event at a parcul hospita). The appendices, table, and char therefor repo od of
                                                                                  individual
 totas weighte by both discharges and hospita.


The sample design intentionally distrbutes its dischares evenly between smal
large hospitas (Ch-squar 0. 03, df I , P 0: 0. 75). Like the National DRG Validation  , medum, and
                                                                                          Study, the
majority of DRG 416 discharges came from urban (Mantel- Haenszel chi-square 0.
df I , P 0: 0. 9), nonteaching (Matel-Haenszel chi-
                                                     squar 0. 08, df I, P 0: 0. 75), and nonprofit
(Mantel-Haenszel chi- squar 0. , df I, P 0: 0. 9) hospitas.

Weighted by dischare, patients assigned DRG 416 averaged 79.
                                                                                      3 year of age, alost 6         year
older than National DRG Validation Study dischares (T-test 2.
                                                                                       , df 72, Po: 0.05). The
former saple s higher proporton of dIales did not attn statistical signifcance (Mantel-
Haenszel chi- squar 0.57, df I, Po: 0.5). Dischares biled as DRG 416
                                                                                             had an average lengt

of stay 2. 3     days longer than National DRG Validation Study discharges. Payment for patients
discharged as DRG 416 averaged nearly $1 200 more per patient than the average
                                                                               report in
                                         ---------------------------------------------------          ----------------
                                                                                                      -----------------




  the National DRG Validation Study. Discharges adgned to DRG 416 died nearly five times
                                                   :.':: lIational DRG Validation Study. The
  as often as the average for all DRGs as reported €
                                               i::

 high mortity rate reflects                 the   grve prognosis assocIate with septicemia.
                                                                                       DRG416             %f: IDRG€
                                                                                                      f""""'   1'€




      C 30€




                                     "100                           10029                        30+€
                                                                   Bed size€

                                                       Figure 4: Assignment errrs


 Coding mis-assignments

 Overal , 40.5 percent of discharges paid as DRG 416 changed to a dierent DRG after
reabstrtion. Th   rate of                 err €
                               is more than twce that report in the National DRG Valida-
tion Study (Mtel-Hanszel chi- squar 20.54, df I, P -= 0. (01). Weighte by discharge, DRG
416 errrs ocur mor
                         fruently in ru, nonteachig, and nonprofit hospitas. When
compar to the National DRO Valdation Study, assignment errrs              more fruently
in al hospita tys except for-profit hospitas. In each be size categor, the rate of
                                                                                               ocur
DRG 416 roughly doubles that in eah category for the National DRG Valdation Study.
                                                                                                                err
Within the sample, errrs were                     mo liely in smal and large hospitas than in mid-size
hospitas (Chi-squar 0.49, df 2, P -= 0. 5).

Patient demogrphics, weighte by discharge, indicate that DRO 416 discharges assigned in-€
corrtly were           older, more likely male, and enjoyed a lower mortity rate than discharges as-€
signed corrtly. The lattr fmding contrts the grve prognosis of septicemi with
                                                                              the better€
outcomes expeted for less serious diseases miscoded into DRG 416. Lengt of stay
                                                                                and€
average reimburement did not differ significantly between                         corrtly and incorrtly assigned
discharges.€

Direction of errors

Weighte by dischare, 91.9 percent of errrs in DRG 416 resulted in
                                                                       overpayments to the
hospitas. This rate significantly excee the 59. 7 percent overpayments in the National DRG
Valdation Study (Matel-Hanszel chi- squar 18. 9, df      P -= 0. (01). Examned by hospita
                         "..
                         ...
                        .. ...
                        ....
                       .....
              ------------
              --------       ...... ....
                        ... .......      .. "' ....
                                    ... ....... ...
                                      ...... --------- ....  ------------------
                         ...-.. -----------------------------------------
                                                          .. ------------------
                                                        ...
                                -----------------------------------------..
                                ------------------
                                 ---".,---------
              --------.... -------------------
                                 . :. :;:::::;:
                           :., :,"",:
                           :.;.".:.             ",.     ..-
                                                        ---
                                                ----------------------
                                                         :::::::::::::::           -...------------
                                                                                ....
                                                                                  .-.   ------------
                                                                                   .......
                                                                         - ::: ------------




  demogrphy, in all categories but for-profit institutions, the rate of overpayment measur
  higher for DRG 416 dischares than in the National DRG Valdation Study. The 91.9 percent
  overpaymnt rate for DRG 416 when combined with the 40.5
                                                                  percnt error rate for DRG 416
  yielde an effective overpayment rate of 36. 9 percent, more than                           th tis
                                                                                 that of the Na- ­
  tional DRG Validation Study (11. percent). The proporton of overpayments for DRG 416 ~
  was highest among large hospitas (100. 0 percent) and lowest among mid-siz
                                                                             hospitas
  (778 percent) (Chi-squar 1.2 , df2, P.. 0. 75).

                                                                                                                  DRG 416 underpeld



                                                              n..".
                                                              ""'n
                                                         Iii ------------------      11--------
                                                                                      ,
                                                                                                                  DRG4160verpaid


                                   ""0""
                                      no..

                                   ..m.
                                                              n......
                                                               .m.. ---------
                                                                                          .m....
                                                                                          """n ---
                                                                                     --- m....
                                                                                           '''m
                                                                                          .h....
                                                                                                       ItN;$1 NDRGVS underpaid
                        :::. _h :::          _n_n_n :::- n-         n--_n_- :::. ---___nnn             f:-:'O:':':':'O:'1NDRGVS   overpaid
                                       m. ---------

    :f -




                         "'100                      10029                        30+
                                                    Bed siz

                                                Figure 5: Direcion of errors


Errrs resultig in overpayments to hospitas
                                              (discharge weighted) occur at the highest rate
in urban (96. 2 percent), nontehing (88. 5 percnt), and nonprofit (93.
                                                                       2 pe'Xnt) hospitas.
The restrcte size of the underpayment subsample lints comparon of patient
demogrphics.

Department responsible for error
The vast majority (93. 2 percnt) of errrs in DRG 416 discharges
rerd deparent               co
                      incorrtly
cordigly. Only two of 30 errrs
                               
                        occur when the medca
                               the dischare as DRG 416 and the hospita biled it ac­
                                  resulted when medcal reord deparnts corrtly

selecte a different diagnosis, but the hospita adnistrtion incorrtly biled
                                                                           it as DRG 416

anyway. Ths rate closely approximated the 91.2 percent of the National DRG Validation
Study. Cog deparnt errors cause the majority of errors in all sampling strata.
            -------- ------ --- - - ------------ ------- -----------------------     -----------------------------
                                                                ------------------- ---- ----- - ---------- ------ ---
            -- -----------------------------------------------------------------------------------------
                                                    ::::::::::::::::::::\:::j




                                                     Misspocitcation



                                                        MlscOlng



                                                      Resuencing



                     DRG416                               Otr                               All DRGs

                                            Figure 6: Reasons for errors€


 Reasons for errors
Mis-speification errrs by the attndig physician, in wrting down the
                                                                    wrng diagnosis or
procedur, cause 14 of the 30 assignment errrs in DRG 416. When
                                                                  examned using an ex-
clusive analysis (identifyng the fit error to occur
                                                    chrnologicaly), physicians
the pricipal diagnosis in 46. 7 percnt of discharges. Reseuencing of the principal
                                                                                                            mis-sped
                                                                                                              and
                                                                                    secon-
da diagnoses by the hospita accounte for one- third of the errors in the DRG 416 sample.
These propoons lagely parleled the results of the National DRO Valdation Study.

Financial effects



Appendix F- l shows the averge and aggrgat
                                                      in relative weight for DRG 416 dis-
                                                             change
charges followig reabstrction. Mter reb3trction, the average
                                                                 relative weight for DRO 416
discharges changed 13. 2 percent (discharge weighte)
                                                     frm 1.5343 to 1.033. For the 73 dis-
charges in this sample, this aggrgate to a tota decas in
                                                           relative weight of 16. 8630 (15.
percent unweighte).




            198              198             19B              1987             198             198              199
                                                           F1 Year
                                     Figure 7: Projeced overpayments
  Extrapolate to the enti   Medcar population , if the net rate of overpayment remained con-
  stant , mis-assignment of DRG 416 cause $38. 1 millon in overpayments during the study
  year. The projecte erroneous payments incras steadly
                                                           to $69. 9   miion annually.
  Correct DRGs

 DRG 416 falls into Major Diagnostic Category
                                                  (MC) 18: infectious diseass. Appendix G-
 reveals that the majority of discharges incorrectly assigned to DRG 416 came
                                                                              frm only two
 MDCs.

       MDC 18: Infectious diseases

       MDC 11: Kidney and urnar trct disease

 Reviewers reassigned 26. 7 percnt of the dichares to MDC 18
                                                             (but to DRGs other than 416)
 and 23. 3 percent of the dischares to MDC 11.

 In adtion , five of the eight discharges reassigned to MDC 18 came
                                                                    frm DRG 419 (fever of
 unkown origin) and five of the seven reassigned to MDC 11 came
                                                                   frm DRG 320 (kdney
 and urnar trct infections, age 70 and/or complicating conditions). Both of these DRGs
 have substatialy lower relative weights for the
                                                 purse of reimburment (DRG 419:
   8583, DRG 320: 0. 8039). Within each of these two DRGs, al changes derive
ICD- CMcod. In DRG 419 , all five discharges reassigned to ICD                 frm a single
                                                                    cod 780. 6 (pyrxi of
unkown origin). In DRG 320, al five discharges
                                                   resigned to ICD 599. 0 (urnar trt in-
fection, site not speifed). The vagueness of these
                                                   cos   suggests inaduate diagnostic
workup, in adtion to physician misunderstading of the ICD-
remander of incorrt DRG assignents spread amng eight MDCs.     CM taonomy. The

Clinical review

In ths sample, patients assigned to DRG 416 exhibited no cass
However, dichares paid as DRG 416 reorded 13 cases
                                                                of unnecssar adssions. '
                                                         with quality of car problems.
Smal hospitas had the highest incidence of cases (25.
                                                      0 percnt), totang
the average number report in the National DRG Validation Study. Onlyalost one cas
                                                                                 th   times
tu   discharge occur.                                                              of prema-
  -----------------------------------
--------------------------------------
 ----------------
 -------------
----------------
 ---- ------------                                           -----------------------------------
                                                  -----------------------------------------------
                                                   ----------------------------------------------
                                                  -----------------------------------------------
                                                  ---------------- ------- ---------- -------------




                                                                                       DRG416

                                                                               !"":iiH All DRGs




                                                                                :W%iWWM,?1
     Unneeded admissions                 Poo quality care            Premature discharges


                             Figure 8: Clinical incidents
                                     RECOMMENDATIONS€
       The HCFA should
       accurcy and
                          dit the PROs to review DRG 416 discharges for both Codng€
                     por quality car.
      The HCFA should    dit the PROs to educate physicians and coders about the proper€
      assignment of DRG 416, and about methods of distinguishing septicemia from fever of€
      unkown origi and urnar tract infection
                                             , site not speifed.
The HCFA reuested more informtion about the fIrst
seond reommendation. The OIG                        reommndation and         agr
                                     moded the draf of this inspetion to accommodte
                                                                               with the
                                                                                     the
HCFA' s comments and continues to believe that full implementation of its
could save $69. 9 millon annually.                                          reommendations
             Appendix A- 1: DRG 416 discharges from all PPS hospitals

  Fiscal Year                           1984                          1985                 1986               1987
  Relative weight€                     5504                      1.                     5708                  6182
  Number of discharges
                 605                      273                      374               85, 929
  Total charges ($000)
             205 955                 446, 283                 373, 582              697 250
  Total reimbursement ($000)
       144 328                 288, 988 .               601 396               411 624
  Average reimbursement ($)
                171               4,427                         591                790




                          Appendix A-2: DRG 416 sampling frame


                                                            Bed size
                                     ",100                  100- 299                       300+             Total€
 Medicre population                     184                           033                16, 056           65, 273€
 Sampling frame                         140                           417
 Sampled€                                                                                   936               493€
 Sa"1ling fraction (%)                 17.€




                     Appendix A- 3: DRG           416 hospital                  demography€
Number€                           Bed size                                               Weighted percentage
(Percent)€               ",100    100- 299          300+                Total     Sample       Discharge     Hospijal
Urban€                   6(25.    16 (64.         22 (91.
Rural€                                                                            (60.             (74.       (48.
                      18 (75.      9(36.             2(8.                         139.             (26.)
Teaching€                0(0.      7(28.          12 (50.
Nonteaching€                                                                      (26.             136.       (17.
                       24 (100)   18 (72.         12 (50.
                                                                                  (74.             (63.      183.)
prom€                  5 (20.       114.            114.
Nonprofit€                                                                         (9.               (6.     (12.
                      19 (79.       196.          23195.                          (90.4)           (93.      187.
Total€                24 (100)    25 (100)        24(100)                         (100)            (100)      (100)€
             Appendix A-4: DRG 416 hospital demography comparison
  Percent                                     Bed size                          hted   rcenta
  distribuion                    ",100        100- 299         300+   Sample     Discharge Hospital

  Urban         DRG 416           25.           64.            91.      60.            74.     48.
                NDRGVS          - 19.         . 70.            94.      62.            71.     48.
  Rural         DRG 416          75.            36.                    39.             26.     51.
                NDRGVS           80.            29.                    38.             28.     52.
 Teaching       DRG 416                         28.            50.     26.             36.4    17.
                NDRGVS                          18.            55.     25.             31.     16.
 Non-           DRG 416         100.           72.             50.     74.             63.     83.
 teaching       NDRGVS           97.           81.2            44.     74.             68.     83.
 Profit         DRG 416          20.                                                           12.
                NDRGVS                         17.                                             10.

 Nonprofit      DRG416           79.           96.             95.     90.             93.     87.
                NDRGVS           90.           82.             97.     90.             90.     89.




                  Appendix A-5:           DRG 416 patient demography
                                  Bed size                                    Weighted average
                     ",100        100- 299            300+            Sample Discarge Hospital
Age   (years)             77.           77.              80.           78.               79.     77.
Sex (% male)              41.           44.              62.           49.               54.     45.
LOS (days)                              11.
Payment ($)           3045                            4636
Mortality (%)         33.               28.
                                                                       4027             430      3732
                                                         29.           30.              29.      30.
(%)
($)




            Appendix A- 6: DRG 416            !i':!1t
                                                          demography comparison
                                      Bed size                           Weighted average
                               0:00   1 QO, 299         300+     Sample     Discharge   Hospttal
Age            DRG 416          77.     77.             80.        78.         79.          778
(years)        NDRGVS         ' 76.     74.             72.        74.         73.          74.
Sex            DRG 416          41.     44.             62.        49.         54.       45.
(%ma/e)        NDRGVS           43.     45.             48.        45.         46.       44.
LOS            DRG 416                  11.
(days)         NDRGVS

Payment        DRG 416         3045    4384             4636      4027        430       3733
               NDRGVS          1849    2923             3807      2860        3115      2508
Mortaltty      DRG 416         33.     28.              29.       30.         29.       30.
               NDRGVS
                      Appendix B- 1:                DRG 416 assignment errors
  Number                                 Bed size                                         Weighted percentage
  (Rate)                  ,,100          100- 299              300+      Total     Sample      Discarge           Hospital
  Urban                   2 (25.          8(50.               8(36.                (40.             (39.           (35.
  Rural                   9 (50.          1 (11.           21100.                  (41.4)           (65.           (45.
  Teaching                                3(42.               4133.                136.             (39.           (39.
  Nonteaching         11 (45.             6(33.               6(50.                (42.             (44.           (42.
  Profit               2 (40.              0 (0.             0 (0.                 (28.               (5.          (20.
  Nonprofit            9 (47.4)          9 (37.            10 (43.                 (42.4)           (42.           (43.
 Total                11 (45.            9 (36.            10 (41.                 (41.             (40.           (42.




              Appendix B-2: DRG 416 assignment errors comparison
 Rate                                             Bed size                          Weighted percntage
                                   ,,100           100- 299       300+           Sample     Discharge       Hospital
 Urbn           DRG 416             25.              50.          36.              40.         39.           35.
                NDRGVS              22.              19.          16.              18.         17.           20.
 Rural          DRG 416            50.               11.         100.             41.         65.            45.
                NDRGVS             23.               16.          22.             21.         20.            21.
Teaching        DRG 416                             42.           33.             36.         39.            39.
                NDRGVS             20.              20.           15.             17.         17.            19.
Non-            DRG 416            45.              33.           50.             42.         44.           42.
teaching        NDRGVS                              17.           17.             20.         19.           20.
Profit          DRG 416            40.                                            28.                       20.
                NDRGVS             23.              18.           18.             20.         19.           21.
Nonprofit       DRG 416            47.              37.          43.              42.         42.           43.
                NDRGVS             23.              18.4         16.              19.4        18.           20.
Total           DRG 416            45.             36.           41.              41.        40.            42.
                NDRGVS             23.              18.          16.              19.         18.           20.
(%)
($)




      Appendix 8-3: DRG    416 assig:::::int errors by patient demography
                                  Bed size                     Wei hted avera
            ",100      1 00-299    300+      Sample   Discharge    Hospijal
Age         Correct       74.       75.      79.         76.         77.        75.
(years)     Incrrect      80.4      80.      82.         81.0        81.        80.
Sex         Correct       23.      43.       64.         44.         52.        36.4
(%male)     Incrrect      63.      44.       60.         56.         55.        56.
LOS         Correct                          10.
(days)      Incrrec                15.                               10.
Payment     Correct       2915    4267       4779       4025        4366        3650
            Incrrect      3200    4592       446        4029        4315        3849
Mortalijy   Correc        23.      31.       35.        30.         32.         27.
            Incrrect      45.      22.       20.        30.         24.         33.
                                Appendix C-1: DRG 416 direction of error€
   Number of                                    Bed size                                      Weighted percentage
   overpayments                 ",100           100- 299          300+                Sample
                                                                            Total                      Discarge           Hospnal
   (Percent of errors)

   Urban                    2 (100.             7(87.             8(100)               (94.                  (96.          195.
   Rural                        8(88.            0(0.             2(100)     1'0       183.                  167.          (61.
  Teaching                                     3 (100.            4(100)
  Nonteaching
                                                                                     (100.              (100.)            (100.
                           10 (90.              4 (66.            61100)              (87.                  (88.           (84.
  Prom                          1 (50.
  Nonprom                                                                              (50.)                (50.           50.
                           9 (100.              717.            10(100)               (92.                   (93.          (92.
  Total                    10 (90.              717.            10(100)               (90.                  (91.          (88.




                         ndix       C-2: DRG 416 direction of error com arison€
  Percent                                              Bed size
 overpaymnts                                                                                   hted   rcenta
                                          ",100        100- 299      300+           Sample      Discharge Hospnal
 Urban           DRG 416                 100.             87.       100.              94.              96.           95.
                 NDRGVS                   53.             60.        57.              58.              57.           56.
 Rural           DRG 416                  88.                       100.             83.               67.           61.
                 NDRGVS                   66.             57.        65.              64.              63.           63.
 Teaching       DRG 416                                  100.       100.              100              100            100
                NDRGVS                    66.             59.        56.             57.              58.            62.
Non-            DRG 416                   90.            66.        100.             87.              88.           84.
teaching        NDRGVS                    64.            59.         59.             61.              59.           61.
prom            DRG 416                  50.                                         50.              50.           50.
                NDRGVS                   68.             55.        63.              60.              61.           63.
Nonprofit       DRG 416                  100.            77.       100.              92.              93.           92.
               NDRGVS                    63.             60.        57.              60.              59.           61.
Total          DRG 416                   90.             778       100.             90.               91.
               NDRGVS                                                                                               88.
                                         64.             59.        57.             60.               59.           61.
(%)
($)




      Appendix C-3: DRG   416 direciion of error by patient
                                                                         demo
                                    Bed size                         Weighted avera
                      ",100         1 00- 299          300+   Sample Discharge        Hospijal
Age        Overpay     80.           - 78.             82.     80.         80.         80.
(years)    Underpay    770             87.                     84.         80.         81.
Sex        Overpay     70.             42.             60.     59.         56.         59.
(%male)    Underpay                    50.                     33.         15.         19.4
LOS        Overpay                     11.
(days)     Underpay                   31.                      21.         10.         13.
Payment    Overpay    3272           4693            446      4071        4356        3919
           Underpay   2481           4238                     3652        3024        3161
Mortalny   Overpay    40.             26.             20.      28.        28.         32.
           Underpay    100                                     50.        69.         61.3
                   Appendix 0-1: DRG 416 hospital department making error
    Coding depart-                              Bed size€
                                                                                                  Weighted percentage

    ment elTors                ",100            100- 299        300+         Total         Sample            Discarge
    (Percent of errrs)                                                                                                           Hospijal

    Urban                    2(100. 0),         8(100.)        7(87.                       (94.4)                 (93.
    Rural                     8(88.             1(100.)                                                                          (98.0)
                                                              2(100.                       (91.7)                 (98.           (94.
   Teaching                    0 (0.          3(100.)          3 (75.
                     (85.
   Nonteaching               10 (90.          6(100.                                                             (72.4)          (44.€
                                                              6(100.                       (95.                  (98.            194.
   Prom                    1(50.
   Nonprofit                                                                               (50.                  (50.
                          9(100.              9(100.           9 (90.
                                                                                                                                 150.
                                                                                           (96.4j                (94.            (98.
   Total                  10 (90.             9(100.           9190.                   (93.                      193.            (93.
   B!!lance of errors made by hospijal biling department




                     0-2: DRG 416 hos ital de
           endix
                                                                   artment      makin             errr com                  arison
  Percent of coing                                  Bed size
  department errrs
                                        dOO
                                                                                                    hted          rcntage
                                                    100- 299        300+        'Sample             Disharge Hospijal
  Urban             DRG 416             100.           100.         87.5              94.
                    NDRGVS                                                                                  93.            98.
                                          89.           88.         90.               89.                   89.            89.
 Rural              DRG 416               88.          100.       100.                91.                  98.
                    NDRGVS                94.                                                                              94.
                                                        95.        90.                94.                  92.             94.
 Teaching           DRG 416                            100.        75.                85.
                    NDRGVS                                                                                 92.            91.
                                        91.             92.        89.                90.                  90.             91.
 Non-               DRG 416             90.         100.         100.                95.
teaching            NDRGVS                                                                                 98.            94.
                                        93.          90.          92.                92.                   91.            92.
Profij             DRG 416             50.
                   NDRGVS                                                            50.                   50.            50.
                                       86.             92.4       81.                89.                   85.            87.
Nonprofi           DRG 416             100.         100.          90.                96.4
                   NDRGVS                                                                              94.                98.
                                       94.           90.          90.                92.               91.                92.
Total              DRG 416             90.         100.          90.
                   NDRGVS                                                            93.               93.                93.
                                       93.          90.          90.                 91.               91.                92.
(%)
($)




      Appendix 0-3: DRG 416 hospital department       making error by patient
                                             graphy
                                 Bed size                     Weighted averages
                         ",100   1 00- 299     300+   Sample      Discharge   Hospijal
Age          Coing      . 80.      80.         82.      81.4        81.        81.
(years)      Biling                            75.      76.         76.        76.
Sex          Coing       70.       44.         66.      60.         60.        61.
(%male)      Billng

LOS          Coing                 15.                  10.         10.        10.
(days)       Billng

Payment      Coing       3272     4592        4503     4092        4362       3897
             Billng     2481                  3834     3158        3176       2798
Mortalijy    Coding      40.      22.          22.      28.         24.       31.
             Billing    100.                            50.         48.       76.
                       . Appendix E-1: DRG 416 reasons for errors

                                                         Bed size
                                           ",100         100- 299          300+            Total        (Percent)€
  Mis-specification€
  Miscoding                                                                                               146.€
                                                                                                          (13.€
  Resequencing
                                                                                                          (33.€
  Other
                                                                                                           (6.€
 Total€
                                                                                                        (100.)€




    Appendix E-        2: DRG 416 reasons for errors b hos                         ital demo
                        Mis- spcifiction    Miscing          Resequencng            Other              Total€
 Number of discharges (Percent distribution)

 ",100 bes€                 4 (36.4)             1 (9.          5(45.               119.            11 (100.)

 100- 299 beds              5(55.              2122.            2122.              OIO.              9 (100.
300+ bes                    5(50.              1 (10.           3 (30.)           1 (10.           10 (100.
Urban€                      8(44.              4122.            5(22.              1 (5.           18 (100.€
Rural                       6(50.               0 (0.           5 (41.             118.            12 (100.
Teaching                    4157.              2(28.                010.           1 (1.                00.
Nonteaching                10 (43.              2 (8.         10 (43.              1 (4.           23 (100.
Protn€                      0 (0.               0(0.            1 (50.            1 (50.            2 (100.
Nonprofit                 14 (50.              4 (14.          9 (32.              1 (3.           28 (100.j-
Total                     14 (46.           4(13.             10 (33.              216.            30 (100.
               Appendix E-3:       DRG 416 reasons for errors comparison
 Percent distribuion                            Bed size                 Wei       hted   rcenta
                                   ",100        100- 299    300+     Sample         Discharge Hospijal
 Mis-speffication      DRG 416     36.            55.       50.        46.                49.      44.
                       NDRGVS      49.            44.       49.        48.                48.      48.
 MiSCing               DRG 416                    11.       20.        13.4               12.      11.
                       NDRGVS      10.4           14.       11.4       11.                12.      11.8
 Resequencing       DRG 416        45.           22.        30.       33.                 29.      35.
                    NDRGVS         31.           24.        24.       27.                 25.      28.
Other               DRG 416                      11.        10.       10.                 10.4
                    NDRGVS                       15.        14.       12.                 14.      11.




              ndix E-4: DRG 416 reasons for errors b                  atient demo
                                 Mis-speffcation           Miscing   Resequencng                 Other
Age (years)                              81.

Sex (% male)
                                                             78.            82.                   76.
                                         50.
                75.             70.
LOS (days)

Payment ($)                                                                  12.
                                         4009
               4765        3939
Morta,my (%)                              28.
                                                   3158
                                                              25.        30.                      50.
                 Appendix F- 1: DRG 416 corrected relative wei hts


                                              Bed size                 Average­
                                 ",100        100- 299
  Avera                                                                  Total
  Paid
  Correct
                                1.   5343       534          5343            534
                                     2482       3963'        2614
  Diference                       2861                                   3033
  (Rate)
                                                1380         2729        2310
                                 (18.            19.        (17.        (13. 2)"
  Total

  Paid
                       36. 8232
  Correct
                                   38. 3575     36. 8232   112. 0039
                              29. 9568       34. 9075     30. 2736
  Diferel)e
                     6864                                 95. 1409
                                                4500         5496     16.8630
  . Discharge weighted.




               Appendix F-2: DRG 416 corrected reimbursment


                                            Bed size                 Average­
                               ",100        100-299
Avera                                                       300+       Total
Paid
                               3853            4221        442
Correc                         3135                                     4186
Diference                                     381          3685        356
                                719            380          797
(Rate)                         (18.                                      630
                                               (9.         (17.         3.4)"
Total
Paid
                                481         105 520      107 554
Correc                       70, 811                                 305 556
Diference                                       184                  219 890
                                671            336       36, 222
(Rate)
                              (23.           (26.         (33.        127.
. Discharge weighted.
., €


                      Appendix F- , i)RG 416 projected annual
                                                              cost of errors
        Fiscal Year             Reimbursement           Overpayment€
                                      ($ millon) 

                                                           ($ milion) 



       1984                                144.€
       1985                                                       19.€
                                           289.€                 38.€
       1986                                601.€
       1987                                                      79.€
                                           411.€                 54.€
       1988 est.
       1989 est.€
                                           44.€                  59.€
                                          523.€                  69.€
       1990 est.€
                                          597.€                  69.€
       Overpayment is calculated as 13. 2 percent of reimbursement.
       Estimates based on linear regression.
                                              , .€
                                            "::




                         AppendiX'
                                                    Correct MDCs for DRG 416 errors

                                                              Bed size€
                                                     "JOO     1 00- 299     300+      Total      (percent)€
    01:     Nervous System
    04:    Respiratory                                                                                   (6.€
    05:    Circlatory                                                                              (13.€
   06:     Digestive                                                                                (6.€
   08:     Musculoskeletal€
                                                                                                       13.€
   09:     Skin and Breast                                                                             (3.
   10:     Endrine and Metabolic                                                                       (6.€
   11:    Kidney and Urinary Tract                                                                     (6.
  18:     Infectious Diseases                                                                     (23.
  21:     Injury, Poisoning & DlUgs                                                               (26.
                                                                                                   (3.€
          Total€
                                                                                                       (300.)€



                                 ndix   G-2: Corrct DRGs for DRG 416 errors
 Number of discharges
                                                            Bed size
                                                  ,,100     100,299       300+     Total
         Respiratory infecion
                                                                                              (Percent)
         Simple pneumonia
                                                                                                 16.
 296 Nutrnional
                                                                                                 (6.
320 Urinary tract infection
                                                                                                 16.
331 Other kidney diSOrders
418 Postoperative
                                                                                                (6. 7)
419 Fever' of unknwn oriin
                                                                                                16.€
     Other€
                                                                                               (16.€
    Total                                                                                      133.€

                                                                                              1100.)€
                                             , .€




                        Appendix H-1: DRG 416 clinical review€
  Number
                                          Bed size
  (Rate)               ",100
                                                                                           Weighted percentage
                                          100- 299          300+     Total      Sample          Discarge          Hospijal
  Unnecessary
  admissions           0 (0. 0) -           0 (0.           0(0.
  Poor quality                                                                       (0.             (0.           10.
  of care             6(25.               4(16.            3(12.                (17.                 19.          (11.
 Premature
 discharge             0 (0.                1 (4.          0(0.                  11.4)              (15.          (20.




                 Appendix H-2:            DRG 416 clinical review comparison
 Rate'€
                                                Bed size
                                                                                 Weighted percentage
                                    ",100       100-299       300+           Sample         Discharge"     Hospijal
Unnecessary       DRG 79
admissions        NDRGVS            12.             10.       ' 8.             10.             10.          11.€
Poor quality      DRG 79            25.             16.       12.€
of care           NDRGVS                                                      17.             15.           20.
                                    11.4

Premature         DRG 79€
discharge         NDRGVS€
